September 23, 2019
Honorable Scott S. Harris
Clerk, Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Howard L. Baldwin & Karen E. Baldwin v.
United States of America
Petition for a Writ of Certiorari
RULE 33.1(h) CERTIFICATE OF COMPLIANCE

Dear Mr. Harris:
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a Writ
of Certiorari in the above entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in Century Schoolbook 12 point for the text
and 10 point for the footnotes, and this brief contains 8,974 words, excluding the parts of
the document that are exempted by Supreme Court Rule 33.1(d).
Executed on September 23, 2019.

Aditya Dynar
Counsel for Petitioners

1225 19th Street NW Suite 450, Washington DC 20036 (202) 869-5210

www.NCLAlegal.org

